               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                Oxnard, CA
    Processing and Distribution Facility
      Destinating Mail Consolidation

                       Audit Report




                                              March 6, 2012

Report Number NO-AR-12-004
                                                                         March 6, 2012

                                            Oxnard, CA Processing and Distribution
                                             Facility Destinating Mail Consolidation

                                                       Report Number NO-AR-12-004



IMPACT ON:
Mail processing operations in the Sierra    found Santa Barbara P&DC needed to
Coastal District of the Pacific Area.       hire more staff.

WHY THE OIG DID THE AUDIT:                  WHAT THE OIG RECOMMENDED:
We performed this review at the request     We recommended the vice president,
of Congresswoman Lois Capps (23rd           Pacific Area, instruct the Sierra Coastal
Congressional District, CA) to review the   District manager to: (1) continue to
consolidation of destinating mail           monitor customer service measurement
processing operations from the Oxnard,      systems, 24-hour clock indicators, and
CA Processing and Distribution Facility     delayed mail to ensure mail is
(P&DF) into the Santa Barbara, CA           processed and dispatched timely; and
Processing and Distribution Center          (2) ensure appropriate staffing levels are
(P&DC). The objectives were to              achieved to timely process mail at the
determine whether a business case           Santa Barbara P&DC. Since
existed to support the consolidation and    management generally followed
to assess compliance with established       established AMP polices and guidelines,
area mail processing (AMP) guidelines.      we made no recommendation.

WHAT THE OIG FOUND:                         WHAT MANAGEMENT SAID:
A business case exists to support the       Management agreed with the finding
consolidation which should produce a        that a business case existed to support
cost savings of about $2.6 million the      the consolidation. Management agreed
first year and $3.1 million in subsequent   with our recommendations to monitor
years. Our analysis showed that (1)         customer service measurement, 24-hour
adequate machine capacity exists at the     clock indicators, delayed mail, and
Santa Barbara P&DC, (2) customer            staffing levels to ensure mail is
service and 24-hour clock indicators        processed timely.
showed both positive and negative
impacts, (3) delayed mail initially         AUDITORS’ COMMENTS:
increased following the consolidation but   The U.S. Postal Service Office of the
has since returned to pre-consolidation     Inspector General considers
levels, (4) Oxnard P&DF employees           management’s comments responsive to
were reassigned to other positions, (5)     the recommendations and corrective
efficiency improved after the               actions should resolve the issues
consolidation, and (6) the U.S. Postal      identified in the report.
Service generally followed established
AMP policies and guidelines. We also        Link to review the entire report.
March 6, 2012

MEMORANDUM FOR:           DAVID E. WILLIAMS JR.
                          VICE PRESIDENT, NETWORK OPERATIONS

                          DREW T. ALIPERTO
                          VICE PRESIDENT, PACIFIC AREA

                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Audit Report – Oxnard, CA Processing and Distribution
                          Facility Designating Mail Consolidation
                          (Report Number NO-AR-12-004)

This report presents the results of our audit of the Oxnard, CA Processing and
Distribution Facility Designating Mail Consolidation (Project Number 11XG055NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Frank Neri
    Kerry L. Wolny
    John L. Byars
    Daniel C. Clements
    Steven M. Mummy
    Corporate Audit and Response Management
Oxnard, CA Processing and Distribution                                                                                  NO-AR-12-004
 Facility Destinating Mail Consolidation



                                             TABLE OF CONTENTS
Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Capacity ............................................................................................................................... 2

Customer Service ................................................................................................................ 4

   EXFC Scores ................................................................................................................... 4

   CEMS Scores .................................................................................................................. 5

   Service Standards ........................................................................................................... 6

   Delayed Mail .................................................................................................................... 6

   Retail Operations ............................................................................................................. 8

   24-Hour Clock .................................................................................................................. 8

Employee Impact ............................................................................................................... 10

Efficiency ........................................................................................................................... 11

Cost Savings...................................................................................................................... 12

AMP Guidelines ................................................................................................................. 14

Recommendations ............................................................................................................ 15

Management’s Comments ................................................................................................ 15

Evaluation of Management’s Comments .......................................................................... 15

Appendix A: Additional Information................................................................................... 16

   Background .................................................................................................................... 16

   Objectives, Scope, and Methodology ........................................................................... 17

   Prior Audit Coverage ..................................................................................................... 18

Appendix B: Management’s Comments ........................................................................... 23
Oxnard, CA Processing and Distribution                                                                    NO-AR-12-004
 Facility Destinating Mail Consolidation



Introduction

This report presents the results of our audit of the Oxnard, CA Processing and
Distribution Facility (P&DF) Destinating Mail 1 Consolidation (Project Number
11XG055NO000). The report responds to a request from Congresswoman Lois Capps
(23rd Congressional District, CA). Our objectives were to determine whether a business
case existed to support the consolidation of destinating mail processing operations from
the Oxnard P&DF to the Santa Barbara Processing and Distribution Center (P&DC) and
to assess compliance with established area mail processing (AMP) guidelines. The
audit addresses operational risk. See Appendix A for additional information about this
audit.

The AMP process is designed to determine whether some or all mail processing
operations can be consolidated from one or more postal facilities to other facilities to:

      Increase operational efficiency and improve productivity through more efficient use
       of assets such as equipment, facilities, staffing, and transportation.

      Provide affected career employees with opportunities for job reassignments.

      Provide postal customers with the same high-quality service they have come to
       expect.

      Ensure overall costs are reduced.

Conclusion

A business case supporting the consolidation does exist, and we estimate it will result in
cost savings of about $2.6 million the first year and $3.1 million in subsequent years. In
addition, the U.S. Postal Service followed established AMP guidelines. Our analysis
concluded that:

      Adequate machine capacity exists to process mail at the Santa Barbara P&DC.

      Customer service and 24-hour clock indicators showed both positive and negative
       impacts.

      Delayed mail initially increased during the consolidation but has since returned to
       pre-consolidation levels and is below the average for similar-sized sites.

      Management reassigned Oxnard P&DF employees to other positions.

      Efficiency improved after the consolidation.

1
    Incoming mail arriving for its point of final delivery (destination) through a processing facility.
                                                                  1
Oxnard, CA Processing and Distribution                                                           NO-AR-12-004
 Facility Destinating Mail Consolidation



The Postal Service projected savings of about $1.35 million in the first year and $2.33
million in subsequent years.

Capacity

Adequate machine capacity exists at the Santa Barbara P&DC to process the mail
volume coming from the Oxnard P&DF.

   The Santa Barbara P&DC received 16 machines and seven powered industrial
    vehicles (PIVs) from the Oxnard P&DF to process the added mail volume. 2

   The mail being transferred from the Oxnard P&DF represents 309 million pieces, or
    an 84 percent increase in fiscal year (FY) 2010 first handling pieces (FHP) 3 volume
    for the Santa Barbara P&DC. In fact, it will have an excess machine capacity of
    about 1.7 billion TPH 4 or about 59 percent (see Table 1). 5




2
  The Oxnard P&DF transferred one automated flat sorting machine (AFSM), 13 delivery bar code sorters (DBCSs),
two delivery input output subsystems (DIOSSs), and seven PIV machines to the Santa Barbara P&DC.
3
  FHP is a letter, flat, or parcel that receives its initial distribution in a Postal Service facility.
4
  TPH is the number of handlings necessary to distribute each piece of mail from receipt to dispatch.
5
  We calculated the projected combined mail volume, maximum machine capacity, and excess capacity for the AMP
review period July 1, 2009, to June 30, 2010.


                                                       2
      Oxnard, CA Processing and Distribution                                                        NO-AR-12-004
       Facility Destinating Mail Consolidation



                            Table 1: Santa Barbara P&DC Machine Capacity
                                                    Annual             Annual              Annual          Annual
                                   Number          Combined           Projected           Excess          Excess
                                      of           Projected          Maximum             Capacity        Capacity
            Equipment              Machines         Volume            Capacity 6                          Percent
    Advanced facer canceller
    System (AFCS)                            3       44,062,899       190,612,800        145,549,901         76.9%
    AFSM                                     2       88,702,447       125,550,000          36,847,553        29.3%
    DBCS                                    29     921,342,435 2,215,815,009 1,294,472,574                   58.4%
    DIOSS                                    4     114,862,979        300,689,573        185,826,594         61.8%
    Low cost tray sorter
    (LCTS)/low cost universal
    sorter (LCUS)                            2        3,392,466          3,700,939            308,473          8.3%
    Linear integrated parcel
    sorter (LIPS)                            1          490,459          2,460,663          1,970,204        80.1%
    Total                                   41 1,172,853,685 2,838,828,984 1,665,975,299                     58.7%
      Source: Enterprise Data Warehouse (EDW)

     In addition, the Santa Barbara P&DC experienced a volume decline of 37 percent from
      579 million FHP in FY 2007 to 368 million FHP in FY 2010 (see Chart 1). Based on the
      previous mail capacity amounts, the Santa Barbara P&DC should easily absorb the
      Oxnard P&DF destinating mail volume.

                                Chart 1: Santa Barbara P&DC FHP Volume
                                             (FYs 2007–2010)




      Source: EDW


      6
       We calculated annual projected maximum capacity based on Santa Barbara P&DC’s window of operation: 8 hours
      of operation for AFCS, DBCS, and DIOSS; and 15 hours of operation for AFSM, LCTS/LCUS, and LIPS.


                                                           3
Oxnard, CA Processing and Distribution                                                                    NO-AR-12-004
 Facility Destinating Mail Consolidation


Customer Service

Customer service and 24-hour clock indicators showed positive and negative impacts.
We reviewed the Santa Barbara P&DC’s four measures of customer service:

   The External First-Class (EXFC) Measurement System. 7
   The Customer Experience Measurement System (CEMS). 8
   The service standard upgrades and downgrades.
   Delayed mail trends. 9

In addition, we reviewed retail operations and 24-hour clock indicators.

EXFC Scores

After the consolidation, overnight scores for ZIP Codes 930, 931, and 934 serviced by
the Santa Barbara P&DC generally declined when compared with scores for the same
period last year (SPLY). In addition, two of the three ZIP Codes 10 dropped below the
national goal in the period following the consolidation (see Chart 2). EXFC scores that
drop below the national goal can be an indicator that additional management attention is
needed to ensure performance expectations are met.




7
  The EXFC is “a system whereby a contractor performs independent service performance tests on certain types of
First-Class Mail (letters, flats, postcards) deposited in collection boxes and business mail chutes. It provides national,
area, performance cluster, and city estimates, which are compared with the Postal Service’s service goals. The
results are released to the public quarterly by the consumer advocate.
8
  CEMS provides an end-to-end approach to assessing experience with the Postal Service from the customers’
perspective, including quality of service received.
9
  Service standards are stated delivery performance goals for each mail class and product that are usually measured
in days for the period the Postal Service takes to handle mail from end-to-end (that is, from the point of entry into the
mailstream to delivery to the final destination). Upgrades to service standards after a consolidation indicate that end-
to-end mail handling takes less time than the established standard. Downgrades to service standards after a
consolidation indicate that end-to-end mail handling takes more time than the established standard.
10
   The three-digit ZIP Code 930 October 2011 score as well as the three-digit ZIP Code 934 September and October
2011 scores were lower than the national goal.


                                                            4
Oxnard, CA Processing and Distribution                                     NO-AR-12-004
 Facility Destinating Mail Consolidation



                              Chart 2: Santa Barbara P&DC
                            Overnight EXFC Service Scores
                    (September-October 2010/September-October 2011)




     Source: EDW.


CEMS Scores

Although EXFC scores indicate a need for additional management attention, the
consolidation has not impacted the customer experience in the areas serviced by the
Santa Barbara P&DC. CEMS scores for three-digit ZIP Codes 930, 931, and 934
improved in Quarter 4, FY 2011 when compared with scores for the same SPLY. In
addition, Santa Barbara P&DC’s Quarter 4, FY 2011 scores were higher than FYs 2010
and 2011 national averages (see Table 2). CEMS scores above the national average
indicate that customers are satisfied with the service provided by the Postal Service.




                                           5
Oxnard, CA Processing and Distribution                                                             NO-AR-12-004
 Facility Destinating Mail Consolidation



                          Table 2: Santa Barbara P&DC CEMS Scores
                            (Quarter 4, FY 2010/Quarter 4, FY 2011)
        Three-Digit ZIP Codes                 FY 2010           FY 2011          Percentage Change
     930 11                                         86.45              89.29                          3.3%
     931                                            93.18              94.64                          1.6%
     934                                              90.4             91.79                          1.5%
     National                                       86.44              87.17                          0.8%
     Source: USPS Customer Engagement and Strategic Alignment.

Service Standards

The AMP study identified a total of nine upgrades and nine downgrades, which had a
minimal impact on customer service. Priority Mail®and First-Class Mail® (FCM) had a
net downgrade of two each, impacting approximately 1.73 percent of the average daily
mail volume or 11,278 mailpieces per day. Standard Mail® and Package services had a
net upgrade of two each 12 (see Table 3).

                 Table 3: Santa Barbara P&DC Service Standards
                                                 Net        Volume of Mail
      Mail Class     Upgrades Downgrades Change                Affected
FCM                                      1                     3           (2)                          11,218
Priority                                 1                     3           (2)                                60
Periodicals                              3                     3             0                                  0
Standard Mail®                           2                     0             2                                  0
Package Services                         2                     0             2                                27
All Classes                              9                     9             0                          11,305
Source: USPS Network Integration Support.

Delayed Mail

During September and October 2011, the Santa Barbara P&DC’s delayed mail increased
to 6.2 million pieces compared to 1.4 million pieces during the same period in 2010. The
6.2 million represents 5.7 percent of Santa Barbara P&DC’s FHP volume. However,
even with this increase, delayed mail volume at the Santa Barbara P&DC were still
below the delayed mail average of 6.4 percent for similar-sized sites (see Table 4).




11
   Three-digit ZIP Code 930 was the Oxnard P&DF’s ZIP Code before the consolidation.
12
   Periodicals and Standard Mail downgrades do not show any service standard impact on mail volume, because this
volume is not captured in the Originating-Destinating Information System (ODIS). ODIS does not sample these
pieces and estimates from various systems have shown this volume to be less than 1 percent of total volume entered
at that facility.


                                                        6
 Oxnard, CA Processing and Distribution                                                              NO-AR-12-004
  Facility Destinating Mail Consolidation



                                         Table 4: Delayed Mail
                                     (September and October 2011)
                                                                                      Delayed Mail as a
                                   Delayed Mail               FHP Volume           Percent of FHP Volume
 Santa Barbara P&DC                       6,245,391            109,512,938                                   5.7%
 Similar-Sized Sites                   173,523,480            2,703,146,558                                  6.4%
Source: EDW and Mail Condition Reporting System (MCRS).

 This occurred, in part, because the contract between the American Postal Workers
 Union (APWU) 13 and the Postal Service did not allow postal officials to timely transfer
 the staff needed to process the Oxnard P&DF’s destinating mail. Management has
 since addressed majority of the situation by negotiating a local agreement with the
 APWU. As a result, delayed mail at the Santa Barbara P&DC decreased to 637,000
 pieces in November and further declined to 92,000 pieces in December 2011 (see Chart
 3).

                              Chart 3: Combined Delayed Mail Volume
                                  As a Percentage of FHP Volume
                                 for June through December 2011




         Source: EDW and MCRS.




 13
   Tentative Collective Bargaining Agreement Between the APWU, American Federation of Labor and Congress of
 Industrial Organizations and U.S. Postal Service, November 21, 2010 - May 20, 2015, Articles 12.5.C.5 and 12.5.C.6.



                                                          7
Oxnard, CA Processing and Distribution                                         NO-AR-12-004
 Facility Destinating Mail Consolidation


Retail Operations

Management made the following changes to retail operations:

   Relocated retail operations to the Oxnard Main Post Office located at 1961 C Street,
    Oxnard, CA.

   Removed five boxes from three-digit ZIP Code 930 Simi Valley, CA, in September
    2011.

   Changed the last pick-up time for four collection boxes in Oxnard from 6:15 p.m. to
    5 p.m., Monday through Friday, and from 5 p.m. to 2 p.m., Saturday.

   Changed window start hours at the Oxnard Main Post Office from 8:30 a.m. to
    10 a.m. and at Federal Station from 9 a.m. to 11 a.m.

   Relocated business mail entry operations to the Oxnard Main Post Office, less than
    5 miles from the Oxnard P&DF, and kept the hours the same.

24-Hour Clock

After the consolidation, the Santa Barbara P&DC generally outperformed the national
average in most 24-hour clock indicators. However, it did not meet the performance
indicator goal or national average for “trips on time between 4 a.m. - 9 a.m. to delivery
units” (see Table 5). As of the week of January 7, 2012, the Santa Barbara P&DC’s
trips-on-time indicator was consistently below the national average. Postal Service
officials indicated that not having sufficient people to process the mail and delays from
the Santa Clarita P&DC contributed to the Santa Barbara P&DC’s ability to meet its
scheduled dispatch times. They said they are working to hire more employees and
additional attention to the Santa Clarita P&DC should correct this issue.




                                             8
Oxnard, CA Processing and Distribution                                                                NO-AR-12-004
 Facility Destinating Mail Consolidation



            Table 5: 24-Hour Clock Indicators (September and October 2011) 14
                                               Santa
                                              Barbara    National
                    Indicator                  P&DC      Average    National Goal
     Cancel 80 percent of collection mail by
                                               77.1%      64.3%          80%
     8 p.m.
     Clear outgoing primary mail by 11 p.m.                   99.9%             93.6%                100%
     Clear outgoing secondary mail by 12
                                                              100.0%            92.1%                100%
     a.m.
     Clear Managed Mail Program mail by
                                                              95.9%             91.1%                100%
     12 a.m.
     Assign mail to commercial/Federal
                                                              100.0%            91.3%                100%
     Express outgoing mail by 2:30 a.m.
     Clear Delivery Point Sequence 2nd
                                                              99.9%             98.9%                100%
     Pass by 7 a.m.
     Trips on-time between
                                                              71.7%             77.0%              86.90%
     4 a.m. – 9 a.m. to delivery units.
 Source: Postal Service “Service and Field Operations Performance Measurement” website.




14
  The 24-hour clock indicators use a color coding system. Red indicates that attention is needed, yellow indicates
that performance is not yet at goal, and green shows performance is at or above goal.


                                                          9
  Oxnard, CA Processing and Distribution                                                              NO-AR-12-004
   Facility Destinating Mail Consolidation



  Employee Impact

  Consolidation of the Oxnard P&DF into the Santa Barbara P&DC required the
  reassignment of 154 Oxnard P&DF employees. Of these 154 employees, 146 were
  reassigned to other positions, six were not eligible for reassignment, 15 and the
  remaining two will be reassigned to other positions during March 2012 16 (see Table 6).

                       Table 6: Oxnard P&DF Employee Reassignments
                                          Mail
       Reassigned to:            Clerk Handler Maintenance Management                                        Total
Santa Barbara P&DC as
same craft                         38      6         15            3                                          62
Santa Barbara P&DC as
maintenance employee                2                                                                         2
Santa Barbara Main Office
as same craft                       1                                                                         1
Santa Clarita P&DC as same
craft                              18      9          8            2                                          37
Santa Clarita P&DC as mail
handler                            19                                                                         19
Van Nuys Post Office as
same craft                                 1                                                                  1
Van Nuys Post Office as mail
handler                             3                                                                         3
Oxnard Main Office as same
craft                              15                                                                         15
Retired                             6                                                                          6
Not eligible for reassignment       6                                                                          6
Will be reassigned in March
2012                                2                                                                         2
Total                             110     16         23            5                                         154
   Source: Postal Service Pacific Area Management.




  15
     These six employees were receiving Workers’ Compensation benefits and, while in this status, the U.S.
  Department of Labor will continue to pay them.
  16
     These two employees have not yet been reassigned because of contract negotiations with the APWU.


                                                          10
Oxnard, CA Processing and Distribution                                                                  NO-AR-12-004
 Facility Destinating Mail Consolidation



Efficiency

Efficiency improved after the consolidation. During September and October 2011, the
Santa Barbara P&DC’s FHP productivity 17 increased from 1,281 to 1,345 pieces per
hour or 5 percent compared to SPLY (see Chart 4).

                                Chart 4: Santa Barbara P&DC
                                      FHP Productivity
                   for September-October 2010 and September-October 2011




Source: EDW.




17
     FHP divided by workhours is FHP productivity. This number is useful when evaluating the overall productivity.


                                                            11
Oxnard, CA Processing and Distribution                                                                   NO-AR-12-004
 Facility Destinating Mail Consolidation



In addition, during the same period, the cost to process 1,000 FHP mailpieces 18 at the
Santa Barbara P&DC decreased from $68.83 to $67.45, compared to June and
July 2011, the 2 months before the consolidation (see Chart 5).

                             Chart 5: Cost per 1,000 Mailpieces (FHP)
                        for June-July 2011 and September-October 2011




Sources: EDW and Financial Performance Report (FPR).


Finally, in September and October 2011, the Santa Barbara P&DC reduced its
workhours by 2,879 or 10.8 percent of the 26,658 workhour savings projected in the
AMP.

Cost Savings

Cost savings resulted primarily from workhour reductions offset by one-time costs
associated with the elimination of the Oxnard P&DF. The Postal Service estimated the
cost savings from the consolidation to be $1,351,373 in the first year and $2,331,510 in
subsequent years taking into account workhours, maintenance, and transportation costs
while the U.S. Postal Service Office of Inspector General (OIG) estimates are higher at
$2,603,070 in the first year and $3,093,888 in subsequent years. The difference in the
Postal Service and OIG estimates is due to workhour adjustments made by postal
management resulting from operational considerations unique to the Oxnard P&DF
study. 19 Table 7 provides a breakdown and comparison of cost savings in the first year
by the Postal Service and the OIG.


18
   We calculated the cost to process 1,000 FHP mailpieces by dividing the operating expense by the total FHP
volume, and then multiplied by 1,000.
19
   While the estimates are different, this difference did not impact the business case supporting the consolidation.
Based on the OIG estimate, the consolidation should produce higher cost savings than projected by postal
management and further supports the consolidation.


                                                           12
     Oxnard, CA Processing and Distribution                                                                NO-AR-12-004
      Facility Destinating Mail Consolidation


                      Table 7: Cost Savings Breakdown and Comparison
                                 Postal Service           OIG Calculations                                          Difference
                                  Calculations
     Savings/Costs         First Year      Annual     First Year      Annual
                            Savings       Savings in   Savings      Savings in
                                         Subsequent                Subsequent
                                            Years                      Years
Mail Processing Craft
Workhour Savings           $1,396,572      $1,396,572  $2,202,988    $2,202,988                                     $806,416 20
Non-Mail
Processing/Management        34,149 21         34,149       34,149       34,149                                                0
Management Workhour
Savings                        654,459        654,459     666,690       666,690                                            12,231

                                                                                           22
Transportation Costs              (2,368,987)           (2,368,987)       (2,425,255)             (2,425,255)            (56,268)

Maintenance Savings                 2,615,316             2,615,316            2,615,316            2,615,316                  0

Total Annual Savings              $2,331,509            $2,331,509            $3,093,888          $3,093,888             $762,379

                                                                                           23
Total One-Time Costs               ($980,137)                              ($490,818)                                    $489,319
Total First Year
Savings                           $1,351,372                                  $2,603,070                            $1,251,698

     Sources: AMP package and OIG calculations.

     Note: Red numbers in the chart indicate costs.




     20
        The difference is due to adjustments made at the discretion of Postal Service management due to operational
     considerations unique to the Oxnard P&DF study.
     21
        We did not verify this number, because it was immaterial.
     22
        We calculated transportation costs based on data from September 1, 2010, to September 1, 2011. We also
     identified 124,067 additional miles resulting from the consolidation. The OIG did not determine the environmental
     impact as this is beyond our scope and expertise.
     23
        As of January 12, 2012, the Postal Service had not incurred any employee relocation costs.


                                                              13
Oxnard, CA Processing and Distribution                                                                 NO-AR-12-004
 Facility Destinating Mail Consolidation



AMP Guidelines

The Postal Service complied with stakeholder communication policies and procedures
and the AMP guidelines were generally followed. Only two of the AMP study steps were
not completed within the established timeframe. Not meeting these timeframes did not
adversely affect the consolidation determination process and therefore, we are not
making any recommendations. (see Table 8 for a timeline of events).

                                    Table 8: AMP Timeline of Events
                                                                                                    Was Step
                                                                                                   Conducted
                                                              Was Step                             Within AMP
                       Event                          Date   Conducted?                            Timeframe?
The area vice president (AVP) notified
district or district notified AVP of the intent to 9/24/11      Yes                                      Yes
conduct study.
Stakeholders notified of the intent to conduct
                                                   10/6/2010    Yes                                      Yes
study.
District manager completed feasibility study
and submitted to AVP within 2 months of             12/7/10     Yes                                     No24
notification to conduct study.
District held public input meeting within 45
                                                   1/19/2011    Yes                                      Yes
days after study was submitted to AVP.
District summarized information from public
meeting and written comments within 15              1/20/11     Yes                                      Yes
days after meeting.
Area and headquarters reviewed the
feasibility study within 60 days from the time      3/11/11     Yes                                     No25
the study is submitted to the AVP.
AVP approved the study after finalized
worksheets were approved by area and
                                                    3/11/11     Yes                                      Yes
headquarters and submitted study to senior
vice president (SVP), Operations
SVP approved study within 2 weeks of
                                                    3/25/11     Yes                                      Yes
receipt from AVP.
Sources: Postal Service AMP and Facility Consolidation.




24
  1 day late.
25
  Postal Service officials indicated the requirements of the National Environmental Policy Act drove the functional
review past 60 days. The review was 34 days late.


                                                          14
Oxnard, CA Processing and Distribution                                       NO-AR-12-004
 Facility Destinating Mail Consolidation



Recommendations

We recommend the vice president, Pacific Area, instruct the Sierra Coastal District
manager to:

1. Continue to monitor customer service measurement systems, 24-hour clock
   indicators, and delayed mail to ensure mail is processed and dispatched in a timely
   manner.

2. Ensure appropriate staffing levels are achieved to timely process the mail at the
   Santa Barbara Processing and Distribution Center.

Management’s Comments

Management agreed with our finding that there was a business case to support the
consolidation. Regarding recommendations 1 and 2, management agreed to monitor
customer service measurement, 24-hour clock indicators, delayed mail, and staffing
levels to ensure mail is processed timely. See Appendix B for management’s
comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendations and corrective actions should resolve the issues identified in the
report.




                                           15
Oxnard, CA Processing and Distribution                                                                   NO-AR-12-004
 Facility Destinating Mail Consolidation



                                  Appendix A: Additional Information

Background

The Postal Service is facing one of the most difficult challenges in its history. There has
been a continual decline in mail volume since peaking at 213 billion pieces in 2006. In
2011, mail volume declined by 3 billion pieces, or a 1.7 percent decrease from 2010,
resulting in a net loss of $5.1 billion.

Title 39, U.S.C. Part 1, Chapter 1, §101, states that the Postal Service “. . . shall provide
prompt, reliable, and efficient services to patrons in all areas . . . ” Further, the
September 2005 Postal Service Strategic Transformation Plan states, “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act of 2006, highlights “. . .the need
for the Postal Service to increase its efficiency and reduce its costs, including
infrastructure costs, to help maintain high quality, affordable postal services. . . ”

In October 2011, the Postal Service created a portfolio of 36 strategic initiatives 26 to
meet ambitious performance and financial goals. Included in these initiatives is network
optimization through reducing plants, adjusting the workforce, and increasing the use of
processing equipment. Additionally, a bipartisan Senate bill titled 21st Century Postal
Service Act of 2011 was proposed on November 2, 2011. It would provide the Postal
Service about $7 billion to pay for employee buyouts of up to $25,000 for as many as
100,000 eligible postal workers.

In June 2011 testimony before the Congress, the U.S. Government Accountability Office
said the Postal Service urgently needs to restructure its networks and operations as its
financial condition and outlook are reaching a crisis. Financial problems exist because
of declining mail volume brought on by customers’ shift to electronic alternatives and the
Postal Service’s difficulty in reducing costs and eliminating excess network capacity.

On July 28, 2011, Congresswoman Lois Capps (23rd Congressional District, CA)
requested the Postal Service OIG to conduct an audit of the ongoing consolidation of
destinating mail processing operations from the Oxnard P&DF into the Santa Barbara
P&DC. Specifically, the Congresswoman was concerned about potential job loss,
environmental impact, and lack of transparency in the process. She requested we
review whether expected savings materialize and whether current service levels are
maintained. In response to this request, the OIG initiated a study on
September 30, 2011, to determine operational impacts of the consolidation and to
assess compliance with established AMP guidelines.


26
   The Postal Service established the Delivering Results, Innovation, Value, and Efficiency (DRIVE) initiative in
October 2011. DRIVE is a management process the Postal Service uses to improve business strategy development
and execution. It is based on a well-established method used by many corporations to apply strategic and financial
rigor to decision making and to navigate through significant organizational changes. DRIVE is focused on a portfolio
of 36 strategic initiatives that the Postal Service will implement to meet its ambitious performance and financial goals.


                                                           16
Oxnard, CA Processing and Distribution                                      NO-AR-12-004
 Facility Destinating Mail Consolidation


Objectives, Scope, and Methodology

Our objectives were to determine whether a business case existed to support the
consolidation of destinating mail processing operations from the Oxnard P&DF to the
Santa Barbara P&DC and to assess compliance with established AMP guidelines. We
reviewed data from June 1, 2011, through January 7, 2012, to analyze efficiencies at
the Santa Barbara P&DC. We also examined mail volume trends from FYs 2007 to
2010. Additionally, we reviewed service scores, estimated the costs and savings from
this analysis, and interviewed management.

We used computer-processed data from the following systems:

   CEMS.
   EDW.
   MCRS.
   FPR.

We conducted this performance audit from September 2011 through March 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on February 2, 2012, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined the data were sufficiently reliable for the
purposes of this report.




                                           17
      Oxnard, CA Processing and Distribution                                         NO-AR-12-XXX
      Facility Destinating Mail Consolidation



      Prior Audit Coverage


                                                 Final
                              Report            Report      Monetary
    Report Title              Number             Date        Impact             Report Results
Canton Processing         NO-AR-09-011          9/22/2009      None       Consolidating the Canton P&DF
and Distribution                                                          outgoing mail processing
Facility Outgoing Mail                                                    operations into the Akron P&DC
Consolidation                                                             was a prudent business
                                                                          decision. We made no
                                                                          recommendations.
New Castle                NO-AR-10-002          2/1/2010    $1,813, 643   Consolidating the New Castle
Processing and                                                            P&DF outgoing mail processing
Distribution Facility                                                     operations into the Pittsburgh
Outgoing Mail                                                             P&DC is a prudent business
Consolidation                                                             decision. No recommendations
                                                                          were made.
Manasota Processing        EN-AR-10-003         2/12/2010      None       There was a valid business
and Distribution                                                          case for consolidating mail
Center Consolidation                                                      processing operations from the
                                                                          Manasota P&DC into the Tampa
                                                                          P&DC. We recommended
                                                                          management ensure the
                                                                          implementation activities of
                                                                          P&DC consolidations begin
                                                                          immediately after AMP proposal
                                                                          approval; require headquarters’
                                                                          approval when implementation
                                                                          is delayed more than 3 months;
                                                                          and enable the automatic feed
                                                                          into the Web MODS for Express
                                                                               ®
                                                                          Mail scanning operations.
                                                                          Management agreed with the
                                                                          recommendations.
Lakeland Processing        EN-AR-10-004         2/12/2010      None       There was a valid business
and Distribution                                                          case for consolidating mail
Center Consolidation                                                      processing operations from the
                                                                          Lakeland P&DC into the Tampa
                                                                          P&DC. We made no
                                                                          recommendations.




                                                       18
      Oxnard, CA Processing and Distribution                                           NO-AR-12-004
       Facility Destinating Mail Consolidation


Dallas Processing and      NO-AR-10-003          2/24/2010   $11,997,208   Consolidating Dallas P&DC
Distribution Center                                                        outgoing mail operations into
Outgoing Mail                                                              the North Texas P&DC would
Consolidation                                                              result in an annual savings of
                                                                           $11,997,208, for a total
                                                                           economic impact of
                                                                           $114,041,172 over 10 years.
                                                                           We recommended management
                                                                           consolidate Dallas P&DC
                                                                           outgoing mail operations into
                                                                           the North Texas P&DC;
                                                                           postmark outgoing letter mail
                                                                           cancelled at the North Texas
                                                                           P&DC with a combined
                                                                           postmark; conduct training
                                                                           classes to inform employees of
                                                                           retirement benefits; and hold
                                                                           meetings with employees to
                                                                           update them on the
                                                                           consolidation process as it
                                                                           moves forward. Management
                                                                           agreed with the monetary
                                                                           impact and the
                                                                           recommendations.
Consolidation of Lima      NO-AR-10-007          7/2/2010       None       A business case exists to
Processing and                                                             support consolidating Lima
Distribution Facility                                                      P&DF mail operations into the
Mail Operations into                                                       Toledo P&DC. We
the Toledo Processing                                                      recommended management
and Distribution                                                           monitor service scores during
Center                                                                     implementation; continue to hold
                                                                           employee briefings; meet with
                                                                           employees to update them on
                                                                           the consolidation process; and
                                                                           ensure the Toledo P&DC
                                                                           access points are secure.
                                                                           Management agreed with the
                                                                           recommendations.
Charlottesville            NO-AR-10-008          8/3/2010       None       There was a valid business
Processing and                                                             case for consolidating mail
Distribution Facility                                                      processing operations from the
Consolidation                                                              Charlottesville P&DF into the
                                                                           Richmond P&DC. We made no
                                                                           recommendations.
Review of Wilkes-          NO-AR-11-001          10/4/2010      None       We assessed the operational
Barre, PA Processing                                                       impacts of the consolidation and
and Distribution                                                           determined that a valid business
Facility Consolidation                                                     case existed for consolidating
                                                                           mail processing operations from
                                                                           the Wilkes-Barre P&DF into the
                                                                           Scranton P&DF and the Lehigh
                                                                           Valley P&DC. We made no
                                                                           recommendations.




                                                        19
      Oxnard, CA Processing and Distribution                                            NO-AR-12-004
       Facility Destinating Mail Consolidation


Marysville, CA             NO-AR-11-002          11/23/2010      None       We assessed the operational
Processing and                                                              impacts of the consolidation and
Distribution Facility                                                       determined that a valid business
Consolidation                                                               case existed for consolidating
                                                                            mail processing operations from
                                                                            the Marysville P&DF into the
                                                                            Sacramento P&DC. We made
                                                                            no recommendations.
Houston, TX                NO-AR-11-004          12/14/2010   $18,974,468    A business case existed to
Processing and                                                               consolidate the Houston
Distribution Center                                                          P&DC’s mail processing
Mail Consolidation                                                           operations into the North
                                                                             Houston P&DC. We
                                                                             recommended management
                                                                             postmark outgoing letter mail
                                                                             cancelled at the North Houston
                                                                             P&DC with a combined
                                                                             postmark, update employees on
                                                                             the consolidation process, and
                                                                             monitor service scores during
                                                                             implementation. Management
                                                                             agreed with the
                                                                             recommendations.
Columbus, GA               NO-AR-11-005          2/14/2011       None       A favorable business case
Customer Service Mail                                                       existed to support consolidating
Processing Center                                                           the Columbus Customer Service
Originating Mail                                                            Mail Processing Center’s
Consolidation                                                               originating mail operations into
                                                                            the Macon P&DC. We made no
                                                                            recommendations.




                                                         20
      Oxnard, CA Processing and Distribution                                           NO-AR-12-004
       Facility Destinating Mail Consolidation


Implementation of          EN-AR-11-004          3/31/2011   $105,125     While there was a valid
Lima, OH to Toledo,                                                       business case for the
OH Area Mail                                                              consolidation of the Lima P&DF
Processing                                                                into the Toledo P&DC,
Consolidation                                                             management did not ensure on-
                                                                          time performance and customer
                                                                          service were improved or
                                                                          maintained during the
                                                                          implementation of the
                                                                          consolidation. We
                                                                          recommended management
                                                                          promptly assess the current mail
                                                                          volume and swiftly adjust
                                                                          workhours, sort plans,
                                                                          transportation, and any other
                                                                          operational requirements;
                                                                          expedite filling vacant positions
                                                                          and assess any additional
                                                                          staffing requirements at all
                                                                          levels; assess and take
                                                                          appropriate corrective action
                                                                          related to mail processing space
                                                                          and transportation issues; and
                                                                          establish and deploy formal
                                                                          AMP implementation teams to
                                                                          the gaining facilities for plant
                                                                          consolidations that result in a
                                                                          facility closure. Management
                                                                          agreed with the
                                                                          recommendations.
Oshkosh, WI                NO-AR-11-006          7/29/2011   $3,477,469   Although the consolidation
Processing and                                                            would result in cost savings,
Distribution Facility                                                     adequate facility and machine
Consolidation                                                             capacity does not exist at the
                                                                          Green Bay P&DC to process the
                                                                          additional mail volume and
                                                                          service could be negatively
                                                                          impacted. We recommended
                                                                          management re-evaluate
                                                                          capacity in the Green Bay
                                                                          P&DC to determine if sufficient
                                                                          work floor and dock space is
                                                                          available; and reassess
                                                                          machine capacity, especially
                                                                          with regards to the flat volumes.
                                                                          Management agreed with
                                                                          recommendation 1. However,
                                                                          they disagreed with the logic
                                                                          used in our analysis of floor
                                                                          space needs, asserting the
                                                                          analysis was too high level.
                                                                          Management agreed with
                                                                          recommendation 2.




                                                        21
     Oxnard, CA Processing and Distribution                                           NO-AR-12-004
      Facility Destinating Mail Consolidation


Flint, MI Processing      EN-AR-12-001          10/6/2011      None       A valid business case exists to
and Distribution                                                          consolidate mail processing
Center Consolidation                                                      operations from the Flint P&DC
                                                                          into the Michigan Metroplex
                                                                          P&DC to achieve cost savings
                                                                          of approximately $6 million
                                                                          annually. We made no
                                                                          recommendations.
Industry, CA              NO-AR-12-002          10/17/2011   $1,321,651   A valid business case exists to
Processing and                                                            consolidate originating mail
Distribution Center                                                       processing operations from the
Originating Mail                                                          Industry P&DC to the Santa Ana
Consolidation                                                             P&DC to achieve cost savings
                                                                          of approximately $1.32 million
                                                                          annually. We made no
                                                                          recommendations.




                                                        22
Oxnard, CA Processing and Distribution                          NO-AR-12-004
 Facility Destinating Mail Consolidation


                            Appendix B: Management’s Comments




                                           23
Oxnard, CA Processing and Distribution          NO-AR-12-004
 Facility Destinating Mail Consolidation




                                           24
